DISTRICT OF COLUMBIA
109 Second Street NE
Washington, DC 20002
Tel 202-289-1776
Fax 407-875-0770
www.LC.org

FLORIDA
1053 Maitland Center Cmns Blvd
Maitland, FL 32751
Tel 407-875-1776
Fax 407-875-0770

VIRGINIA
1065 Airport Rd
Lynchburg, VA 24502
Tel 407-875-1776
Fax 407-875-0770
Liberty@LC.org

REPLY TO FLORIDA

January 14, 2020
Via Electronic Filing
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Elim Romanian Pentecostal Church, et al. v. Pritkzer, No. 20-569
Petitioners Opposition to Second Request for Extension of Time to File
Response to Petition for Writ of Certiorari

Dear Clerk Harris:
On October 22, 2020, Petitioner filed their Petition for a Writ of Certiorari with
this Court. After waiting until the day before his Response would be due, Respondent
then subsequently informed the Court and Petitioners that he did not intend to
respond and was expressly waiving a response. Thus, the initial delay in the
instant matter was 29 days. Ten days later, the day before Petitioners’ Petition was
set to be conferenced by the Court on December 11, 2020, this Court requested a
response from Respondent to be filed on December 30, 2020. The second response
period thus provided a total of 69 days for Respondent to prepare and submit
a response to the Petition.
On December 15, 2020, in the middle of the second response period, Respondent
requested yet another 30-day extension, to and including January 29, 2020, which this
Court granted on December 16, 2020. This third response period thus provided
Respondent a total of 99 days in which to prepare and submit a response to
the Petition.
Now, Respondent comes to this Court requesting yet another delay in the
Response period, which – if granted – would require Petitioners to remain unanswered
for 130 days, over four months, since they filed their Petition.

Elim Romanian Pentecostal Church v. Pritker
No. 20-569
Response Opposing Motion for Extension of Time
January 14, 2020
Page 2 of 2
Petitioners’ Petition raised issues of seminal importance to the First
Amendment. Indeed, in a matter very similar to the issues presented in the instant
Petition, this Court held that “[t]he restrictions at issue here, by effectively barring
many from attending religious services, strike at the very heart of the First
Amendment’s guarantee of religious liberty. Before allowing this to occur, we have a
duty to conduct a serious examination of the need for such a drastic measure.” Roman
Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63, 68 (2020). Respondents’
requested further delay imposes harm on Petitioners by having to wait for final
adjudication by this Court of these critical issues.
For the foregoing reasons, Petitioners respectfully request that the second
request for an extension be denied.
Respectfully submitted,

Mathew D. Staver (Counsel of Record)
Anita L. Staver
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
court@LC.org

